<html>
<title> - PESTICIDE REGISTRATION UNDER THE FEDERAL INSECTICIDE, FUNGICIDE, AND RODENTICIDE ACT: PROVIDING STAKEHOLDERS WITH CERTAINTY THROUGH THE PESTICIDE REGISTRATION IMPROVEMENT ACT</title>
<body><pre>[Senate Hearing 115-171]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-171

                    PESTICIDE REGISTRATION UNDER THE
                    FEDERAL INSECTICIDE, FUNGICIDE,
                          AND RODENTICIDE ACT:
                      PROVIDING STAKEHOLDERS WITH
                    CERTAINTY THROUGH THE PESTICIDE
                      REGISTRATION IMPROVEMENT ACT

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION


                               __________

                              MAY 11, 2017

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.govinfo.gov/


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-499 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="583f2837183b2d2b2c303d3428763b373576">[email&#160;protected]</a>                



           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
JONI ERNST, Iowa                     MICHAEL BENNET, Colorado
CHARLES GRASSLEY, Iowa               KIRSTEN GILLIBRAND, New York
JOHN THUNE, South Dakota             JOE DONNELLY, Indiana
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
LUTHER STRANGE, Alabama              CHRIS VAN HOLLEN, Maryland

             James A. Glueck, Jr., Majority Staff Director

                Anne C. Hazlett, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

               Joseph A. Shultz, Minority Staff Director

               Mary Beth Schultz, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Pesticide Registration Under the Federal Insecticide, Fungicide, 
  and Rodenticide Act: Providing Stakeholders With Certainty 
  Through the Pesticide Registration Improvement Act.............     1

                              ----------                              

                         Thursday, May 11, 2017
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     2
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     3

                                Panel I

Keigwin, Richard P. Jr., Acting Director, Office of Pesticide 
  Programs, U.S. Environmental Protection Agency, Washington, DC.     5
Kunickis, Sheryl, Director, Office of Pest Management Policy, 
  U.S. Department of Agriculture, Washington, DC.................     7

                                Panel II

Murden, Dale, Past Chair, National Sorghum Producers; Past Chair, 
  Texas Sorghum Producers; President, Texas Citrus Mutual, 
  Mission, TX....................................................    25
Black, Hon. Gary W., Commissioner, Georgia Department of 
  Agriculture, Atlanta, GA.......................................    27
Vroom, Jay, President and Chief Executive Officer, Croplife 
  America, Washington, DC........................................    28
Ruiz, Virginia E., Director of Occupational and Environmental 
  Health, Farmworker Justice, Washington, DC.....................    30
                              
                              ----------
                              

                                APPENDIX

Prepared Statements:
    Black, Hon. Gary W...........................................    42
    Keigwin, Richard P. Jr.......................................    49
    Kunickis, Sheryl.............................................    60
    Murden, Dale.................................................    63
    Ruiz, Virginia E.............................................    69
    Vroom, Jay...................................................    73
Document(s) Submitted for the Record:
Roberts, Hon. Pat:
    Various organizations, letter of support for the Pesticide 
      Registration Enhancement Act...............................    78
    California Agricultural Commissioners and Sealers 
      Association, letter of Support for the Pesticide 
      Registration Enhancement Act...............................    80
Question and Answer:
Black, Hon. Gary:
    Written response to questions from Hon. Pat Roberts..........    84
    Written response to questions from Hon. Debbie Stabenow......    87
    Written response to questions from Hon. Patrick J. Leahy.....    88
Keigwin, Richard P. Jr.:
    Written response to questions from Hon. Pat Roberts..........    93
    Written response to questions from Hon. Debbie Stabenow......    98
    Written response to questions from Hon. Patrick J. Leahy.....   103
Kunickis, Sheryl:
    Written response to questions from Hon. Pat Roberts..........   105
    Written response to questions from Hon. Patrick J. Leahy.....   106
Murden, Dale:
    Written response to questions from Hon. Pat Roberts..........   107
    Written response to questions from Hon. Debbie Stabenow......   109
    Written response to questions from Hon. Patrick J. Leahy.....   110
Ruiz, Virginia:
    Written response to questions from Hon. Pat Roberts..........   112
    Written response to questions from Hon. Patrick J. Leahy.....   113
Vroom, Jay:
    Written response to questions from Hon. Pat Roberts..........   115
    Written response to questions from Hon. Patrick J. Leahy.....   117


 
                    PESTICIDE REGISTRATION UNDER THE
                    FEDERAL INSECTICIDE, FUNGICIDE,
                          AND RODENTICIDE ACT:
      PROVIDING STAKEHOLDERS WITH CERTAINTY THROUGH THE PESTICIDE
                      REGISTRATION IMPROVEMENT ACT

                         Thursday, May 11, 2017

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 9:31 a.m., in 
room 328A, Hon. Pat Roberts, Chairman of the Committee, 
presiding.
    Present: Senators Roberts, Boozman, Ernst, Grassley, Thune, 
Daines, Perdue, Stabenow, Brown, Klobuchar, Gillibrand, 
Donnelly, Heitkamp, Casey, and Van Hollen.
    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture to order.
    We are going to go out of order here just for a moment, and 
I recognize the distinguished Ranking Member, Senator Stabenow.
    Senator Stabenow. Well, thank you very much, Mr. Chairman, 
and first of all, I want to thank you for coming to Michigan 
this past weekend. You were a big hit, so do not come to 
Michigan and run for office for the Senate.
    [Laughter.]
    Senator Stabenow. But, in all seriousness, it was a 
wonderful opportunity to have both you and your staff to 
Michigan, to hear from our growers, consumers, conservation 
partners, and local food groups.
    One of our witnesses who owns the Hopyards of Kent, which 
is one of the fastest growing agriculture sectors in Michigan, 
wanted to give you this product of her business as a thank you. 
It is a Michigan Pale Ale from Hopyards of Kent. Please enjoy 
it----
    Chairman Roberts. Thank you.
    Senator Stabenow. --not during the hearing, but you can 
enjoy it afterwards.
    [Laughter.]
    Senator Stabenow. We are, in all seriousness, very 
appreciative. It was a great opportunity for us to, once again, 
as we did in Kansas, talk about working together to write a 
Farm Bill. Which is what we do here on the Agriculture 
Committee, so thank you.
    Chairman Roberts. Well, thank you. We had in excess of 250 
people in a place to hold a hearing that held about 200.
    Senator Stabenow. That is right.
    Chairman Roberts. We heard from one specialty crop after 
another specialty crop group----
    Senator Stabenow. That is right.
    Chairman Roberts. --including this young lady who and thank 
you for this gift.
    Maybe we should open it up and--I usually have a glass of 
ethanol with Senator Grassley every morning.
    [Laughter.]
    Chairman Roberts. It warms me right up.
    Senator Stabenow. Now we understand.
    Chairman Roberts. Maybe this would sort of calm it down 
after that, but thank you for this very much. Thank you for the 
hearing, and thank you for all the work that you and your staff 
did to make it a very good hearing.
    I am going to do this.
    Senator Stabenow. Yes.
    Chairman Roberts. Note the Chairman was able to do this.
    Senator Stabenow. Yes. Good.
    Chairman Roberts. Thanks to Pam Bouma Miller, who was the 
person who gave the testimony for the hops industry, and who 
obviously depends on pesticides.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
  KANSAS, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Twenty-four years ago, a Congressman 
wrote, ``One of the critical tools used by producers to enhance 
their ability to produce the world's most abundant, most 
affordable food supply is pesticides.'' The author of those 
words in 1993 was yours truly, proudly representing the First 
District of Kansas, the Big First.
    In that same article, I discussed reforms at that time to 
the Federal Insecticide, Fungicide, and Rodenticide Act, or 
what we call ``FIFRA'', needed at the time to improve, among 
other things, re-registration of chemistries.
    Today, the Committee will cover the same issues critically 
important to agriculture with regard to providing farmers and, 
as a consequence, our nation's consumers with the necessary 
crop protection tools to prevent, manage, and eradicate 
devastating pest and plant diseases that threaten our food 
supply.
    In my travels throughout Kansas talking to producers, even 
most recently at the field hearing that our Committee held in 
Michigan, a consistent message shared with our Committee is 
that farmers and ranchers in rural America want regulatory 
certainty.
    The hearing today will touch on that theme as well as cover 
a variety of issues, including the Federal Insecticide, 
Fungicide, and Rodenticide Act and pesticide registration 
processes.
    The Committee will hear from two panels of witnesses 
consisting of government officials from the EPA and the 
Department of Agriculture as well as a panel of stakeholders to 
discuss these issues, what works well, and what challenges 
remain.
    The EPA has the primary responsibility for regulating the 
sale, use, and distribution of pesticides. The EPA carries out 
this responsibility through FIFRA, a licensing statute which 
requires the EPA to review and register the use of pesticide 
products.
    Today's hearing is a reminder of this Committee's 
responsibility and my personal commitment, along with the 
Ranking Member, to conduct business through regular order and 
in a transparent manner.
    Relating to FIFRA, this Committee has legislative work 
ahead of us with the reauthorization of the Pesticide 
Registration Improvement Act, or PRIA. PRIA, while technical in 
nature, is critically important with assisting both the EPA in 
carrying out administrative functions and industry that relies 
upon timely pesticide registration decisions to get products on 
the market and in the hands of farmers.
    PRIA expires at the end of this fiscal year, and with that 
deadline in mind, it is my hope that today's hearing will lay 
the groundwork for our Committee action on advancing PRIA this 
work period. There is widespread support for PRIA among the 
registrant community, which includes agriculture and non-
agriculture use, labor, and environmental advocates. 
Illustrating this, is a letter from the PRIA Coalition 
addressed to our Committee expressing support for the 
legislation and urging swift action.
    I ask unanimous consent for this letter to be included into 
the record. Without objection, it is so ordered.
    [The following information can be found on page 78 in the 
appendix.]
    Chairman Roberts. We know that many rely heavily on timely 
and predictable registration decisions. It is important that we 
get PRIA across the finish line, not only to provide certainty 
to the industry, but to provide new products to growers for 
crop protection and to consumers to protect public health.
    As I have said before, U.S. farmers and ranchers will need 
to feed a growing population all around the globe. In order to 
meet that demand, it will be extremely important to provide 
certainty and eliminate any regulatory barriers that might 
challenge farmers from meeting this goal.
    I look forward to hearing from our witnesses, and with 
that, I recognize Stabenow for her remarks.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, good morning, and thank you very 
much Mr. Chairman for holding this very important hearing.
    Our Committee has a long history of working in a bipartisan 
manner to reauthorize the Pesticide Registration Improvement 
Act, which many of us know as PRIA.
    Most recently, our Committee took action in 2012 when I 
served as Chair, and today's hearing is a critical step in this 
process and an opportunity to listen to expert stakeholders and 
the EPA.
    Today, we will hear about the importance of PRIA from the 
perspective of farmers, farmer workers, and consumers.
    Agriculture is a risky business. We know that. Our 
producers know there are few certainties, if any, that they can 
rely on in the field. From unexpected natural disasters 
intensified by climate change, to low commodity prices, 
unpredictable events are a harsh reality that directly affect 
farmers' bottom lines and ultimately American jobs.
    That said, for nearly 15 years, PRIA has served as a 
valuable tool for stakeholders, the EPA, and farmworkers, 
providing certainty, which is needed to fight pest and weed 
infestation.
    Pesticide registration fees also support important 
education and training programs that keep our farmworkers and 
their families safe.
    PRIA also plays an important role off the farm. Products as 
common as household cleaners and disinfectants to lifesaving 
treatments that combat Ebola and the Zika virus and avian flu 
all rely on regulatory certainty and science based decisions 
provided by PRIA.
    PRIA also provides the financial and staffing stability 
that the EPA requires to fulfill its regulatory 
responsibilities, including both new registrations and the re-
registration of pesticide products.
    More important than getting products in the hands of 
consumers is ensuring these products are safe for both human 
health and the environment. In my opinion, any risk, however 
small, of an unsafe product entering the commercial market is 
avoidable if we make decisions that are rooted in science.
    In fulfilling its regulatory responsibility, the EPA must 
stay true to sound science and take every precaution to protect 
our nation's citizens, most importantly, our children.
    I have seen firsthand the devastating effects of excessive 
lead in Flint's drinking water, and I believe there can be no 
tolerance for exposures to products that have devastating 
developmental effects on children.
    I have always been committed to supporting and advocating 
for smart Federal regulations that are based on the principles 
of sound science. Whether it is certainty of man-made climate 
change or the safety of biotechnology, we must look first and 
foremost to science to drive our laws and regulations.
    That is why it is extremely unfortunate it appears that 
scientific inquiry is being jeopardized now at the EPA. Late 
last week, in a very concerning and abrupt move, the agency 
dismissed several members of its Board of Scientific 
Counselors. This is a highly unusual move that has raised 
strong concerns. Former Bush Administration EPA Administrator 
Whitman warned that it could send an alarming message to 
scientists that they must have industry ties to be taken 
seriously.
    In order for the EPA to meet its mission and its statutory 
responsibilities in programs like PRIA and others, the agency's 
decisions must be based on sound, peer-reviewed science. 
Hastily dismissing numerous scientists from the agency's 
technical advisory boards sends the wrong message to the public 
and to all of us about the EPA's integrity and the safety of 
the products they approve.
    I urge the agency to reverse their decision and allow these 
scientists to serve terms in line with historic norms under 
both Republican and Democratic Administrations.
    Mr. Chairman, science underpins everything we are talking 
about here today. I am pleased to partner with you last year on 
a science-based biotechnology bill, and I look forward to a 
Farm Bill process that also recognizes the importance of good 
data and sound science.
    I am sure we will learn more about these matters today, and 
I look forward to hearing from our witnesses and the 
Committee's effort to reauthorize the Pesticide Registration 
Improvement Act in the near future.
    Thank you.
    Chairman Roberts. I thank the Senator.
    I want to welcome our first panel of witnesses before the 
Committee this morning, certainly both having the experience 
and the tenure so that they could wave the banner of sound 
science and can be recognized anywhere.
    Our first panelist is Mr. Rick Keigwin. Rick currently 
serves as the Acting Director for the U.S. Environmental 
Protection Agency's Office of Pesticide Programs. He brings to 
the Committee 20 years of experience with regards to his 
testimony. Mr. Keigwin has served in a variety of leadership 
capacities at the agency, including in the Pesticide 
Reevaluation Division, the Biological Economic Analysis 
Division, and the Registration Division. I do not know of any 
division that you have not served on, sir. We welcome you, and 
we look forward to your testimony.
    Our second witness joining Rick is Dr. Sheryl Kunickis, who 
joins us today from the U.S. Department of Agriculture's Office 
of Pest Management Policy, where she has served as Director 
since 2010. In this capacity, she coordinates the Department's 
role in pesticide regulatory processes and related interagency 
affairs, primarily with the Environmental Protection Agency. 
She also integrates the Department's programs and strategic 
planning related to pest management.
    We welcome both of our witnesses, and we look forward to 
your testimony.
    Rick, why don't you proceed.

STATEMENT OF RICHARD P. KEIGWIN JR., ACTING DIRECTOR, OFFICE OF 
   PESTICIDE PROGRAMS, U.S. ENVIRONMENTAL PROTECTION AGENCY, 
                         WASHINGTON, DC

    Mr. Keigwin. Thank you, Chairman Roberts. Good morning. It 
is very nice to be here. Chairman Roberts, Ranking Member 
Stabenow, and members of the Committee, my name is Rick 
Keigwin, and I currently serve as the acting director of the 
Office of Pesticide Programs at EPA.
    Safe pesticide use makes an enormous contribution to our 
society, particularly in the production of U.S. food and fiber. 
Innovation in pesticide use has greatly increased U.S. 
agricultural productivity and contributed to a predictable food 
supply and stable food prices.
    There are now more than 17,000 registered pesticide 
products containing more than 1,200 active ingredients, with 
uses ranging from insect repellents, household cleaners, lawn 
and garden chemicals, hospital disinfectants, biotechnology 
products, and a wide range of agricultural chemicals used to 
provide an abundant food supply.
    Working with stakeholders, EPA has developed a highly 
regarded program for evaluating pesticide safety and making 
regulatory decisions. Our approach to decision-making is based 
on a model of transparency. Using this approach, the agency 
makes decisions consistent with the information that is peer-
reviewed and protective of human health and the environment.
    Under the Federal Insecticide, Fungicide, and Rodenticide 
Act, or FIFRA, EPA ensures that when used properly, pesticides 
provide significant benefits to society, such as controlling 
disease-causing organisms, protecting the environment from 
invasive species, and fostering an affordable, safe, and 
abundant food supply. FIFRA's safety standard requires EPA to 
weigh these benefits against harm to human health and the 
environment that might result from using the pesticide.
    In addition, under the Federal Food, Drug, and Cosmetic 
Act, EPA sets tolerances or maximum residue limits for 
pesticides used on food and animal feed. The EPA may establish 
a tolerance for a pesticide in food or feed only if we find 
that there is a reasonable certainty of no harm from exposure, 
from consumption of the food treated with that pesticide, and 
from other non-occupational sources.
    The Pesticide Registration Improvement Act, or PRIA, as you 
mentioned, was first signed into law in 2004, and we are now 
talking about PRIA 4, the third reauthorization of PRIA.
    PRIA is a successful example of user fees paid by the 
private sector supporting vital regulatory programs. EPA's 
pesticide activities are funded by a combination of 
appropriations and user fees, with one-time registration 
service fees accompanying registration applications and annual 
maintenance fees supporting continued registration of pesticide 
products.
    Under PRIA, entities seeking EPA's approval to sell or 
distribute pesticide products, in most cases, pay a fee to 
process their applications. The amount of the fee depends on 
the type of application, the complexity of the application, and 
the type of entity. So, for example, a small business pays 
reduced fees, and government and government-sponsored 
organizations are exempt from paying the PRIA fees.
    PRIA was developed by a coalition of pesticide stakeholders 
representing seven different trade groups within the pesticide 
industry and public interest groups representing both the 
farmworker and environmental communities. The result of this 
collaboration is that there are elements in PRIA that are 
important to all of the represented stakeholders in the 
coalition, and EPA for the past many years has served in an 
advisory capacity to this coalition and has welcomed the 
opportunity to provide technical assistance to them.
    Before PRIA, EPA could not process all of the applications 
we received in a timely manner. Backlogs developed, and 
applicants could not predict when the agency could make a 
decision. With the additional resources provided by PRIA, the 
agency can now process new applications in a timelier manner. 
As part of our efforts to continue to improve the registration 
process, EPA has integrated efficiencies throughout our review 
process, enabling the agency to successfully meet the 
requirements of PRIA. Since PRIA became law, the agency has 
seen an increase in the approval of pesticides for us in 
growing specialty groups, helping farmers meet their pest 
control needs.
    Further, some of these fees support improved pesticide 
safety education that helps protect our farmworkers and 
farmworker families.
    In conclusion, the EPA has a history of working in strong 
collaboration with the grower community to address potential 
pesticide risks, while providing growers with the necessary 
tools to meet their pest management needs. Through meetings 
with growers and agricultural stakeholders, we gain a better 
understanding of how farmers use these tools to grow their 
crops.
    Thank you for the opportunity to testify today. I will be 
happy to answer any of your questions. Thank you.
    [The prepared statement of Mr. Keigwin can be found on page 
49 in the appendix.]
    Chairman Roberts. We thank you for your statement and more 
especially for being on time.
    Dr. Kunickis, please.

    STATEMENT OF SHERYL KUNICKIS, DIRECTOR, OFFICE OF PEST 
MANAGEMENT POLICY, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, 
                               DC

    Ms. Kunickis. Chairman Roberts, Ranking Member Stabenow, 
and members of the Committee, thank you for the opportunity to 
provide testimony on the importance of pesticides in providing 
America's safe, abundant, and affordable food supply. I am Dr. 
Sheryl Kunickis, director of USDA's Office of Pest Management 
Policy, or OPMP. I have worked on behalf of the public for 
almost 29 years. I have served as the associate deputy director 
for Ag, Lands, and Wildlife at the White House Council for 
Environmental Quality and served as the acting director in the 
Office of the Chief Scientist at USDA. I earned a Ph.D. in soil 
science from North Carolina State and an M.S. and B.S. in 
agronomy from BYU.
    OPMP harnesses the USDA's expertise to inform regulatory 
actions under FIFRA, as well as pesticide-related provisions of 
other statutes, and coordinates agricultural biotech issues for 
USDA. We strive to ensure fully informed decision-making in a 
number of ways: by clarifying the benefits and costs of Federal 
actions on U.S. agriculture, by providing the best data on 
agricultural production and pesticide use, by effectively 
communicating the concerns of our stakeholders in all sectors 
of the agricultural industry, and by encouraging the use of 
quality science for issues related to pesticides and pest 
management. To this end, I lead a highly regarded 
interdisciplinary technical staff with broad expertise.
    America's abundant, affordable, high-quality, and safe food 
supply is exceptional and the envy of the world, despite the 
uncertainties of weather, consumer markets, labor availability, 
pests and diseases, and production costs. Pesticides are a 
critical component of all farming systems. Whether it is use of 
organic materials such as spinosad insecticide in organic 
cranberry production to manage fireworms or plant-incorporated 
genetically engineered Bt insecticide in controlling rootworms 
across millions of acres of corn production, pesticides are 
essential tools for farmers in managing pests.
    We need certainty, when possible. USDA welcomed EPA's 
proposed classification of glyphosate, commonly known as 
Roundup, as not likely to be carcinogenic to humans. USDA 
publicly commented in support of EPA's conclusion, which is in 
line with other major risk-based assessments conducted by 
regulatory bodies across the world. Glyphosate is important to 
agriculture because of its excellent crop safety in GE crops, 
the broad range of weeds it controls, its flexibility, and its 
economy of use.
    Agriculture depends on a strong, scientifically-based EPA 
to evaluate pesticides. USDA supports PRIA, as it will provide 
the certainty needed for registrants to get innovative 
technologies to market and for growers to know what tools they 
have available to address the next pest challenge, and, of 
course, the educational component is essential.
    Now let us discuss the role of the Endangered Species Act 
in the registration of pesticides. Since 2013, EPA and the 
Services have been working on a nationwide ESA consultation for 
chlorpyrifos, diazinon, and malathion. Chlorpyrifos is a broad-
spectrum insecticide. Diazinon is impregnated in cattle ear 
tags to control flies, and malathion is part of the toolbox 
used to combat mosquitoes, maintain the cotton boll weevil 
program, and manage spotted wing drosophila, an extremely 
destructive, invasive insect in fruit production.
    The services analyze effects of pesticides based on the 
maximum allowable use instead of actual use. We have concerns 
about the impacts of potential mitigation actions on U.S. 
agriculture. FIFRA, the law that directly regulates the 
registration of pesticides, already requires EPA to prevent any 
unreasonable risk to man or the environment, a standard which 
could include endangered species. This dual regulation 
challenges EPA meeting its statutory obligations to regularly 
review pesticide registrations. The current workload is not 
sustainable. Regulatory certainty is needed to ensure the 
continued safe use of pesticides, while offering necessary 
protections to endangered species and their habitat.
    In closing, let me reiterate that our food supply is one of 
the safest anywhere in the world. The USDA Pesticide Data 
Program annually tests a variety of domestic and imported 
foods. In 2015, more than 99 percent of the samples tested had 
pesticide residues below the tolerance level established by 
EPA. These legal limits are established by our colleagues at 
EPA and are but one example of the immensely important work 
that EPA does to register safe and effective pesticides that 
are essential to both conventional and organic agricultural 
systems.
    Thank you very much, and I will look forward to addressing 
any of your questions. Thank you.
    [The prepared statement of Ms. Kunickis can be found on 
page 60 in the appendix.]
    Chairman Roberts. Thank you so much.
    Senator Stabenow, we have two witnesses that were very 
succinct and on time. I think that is--I am not sure if that is 
a record, but at any rate----
    Senator Stabenow. It may be.
    Chairman Roberts. We thank you very much.
    Mr. Keigwin, in the context of PRIA, often times the 
conversation focuses only on the benefits for the registrants. 
Would you elaborate, please, on the other types of benefits 
that PRIA provides? I am going to mention certainty and 
obviously worker protection.
    Mr. Keigwin. Thank you, Senator.
    So certainty for growers, I think, is very important. 
Knowing that tools that are in the pipeline will become 
available by a date certain, I think it is critically important 
to help growers meet their pest management needs. EPA has been 
very successful as part of implementing PRIA that nearly 98 
percent of the time or even more frequently, we are meeting the 
statutory due dates for completing our registration decisions, 
and that is something that we are very proud of.
    PRIA also extends funding for pesticide safety education 
programs, which is also very critical to ensure that the people 
that help us grow our food remain safe and that their families 
remain safe, and the funds from PRIA help to support programs 
either at land-grant universities or in other organizations to 
ensure that they have the protections that they need.
    One of the new things with PRIA 4 that I would like to 
highlight is that it sparks innovation for the development of 
lower-risk pesticides. One of the provisions of PRIA 
establishes higher fees and longer review times for those 
products that do not get classified as a reduced-risk or lower-
risk pesticide, so the result being that something that does 
have the merits of being a lower-risk pesticide can be advanced 
to the market more quickly.
    So those would be three that I would highlight for you 
today.
    Chairman Roberts. I appreciate that very much.
    Doctor, as the Department of Agriculture--well, number one, 
you went from North Carolina State to BYU. That is a long ways.
    Ms. Kunickis. I went in the other direction. I started out 
at BYU and ended at North Carolina State.
    Chairman Roberts. I see. You just reversed. So instead of 
going West, young lady, you went East.
    Ms. Kunickis. Yes, sir.
    Chairman Roberts. All right. Is BYU, the--are they still 
the Cougars?
    Ms. Kunickis. Yes, sir.
    Chairman Roberts. Then you went from the Cougars to a 
Wolfpack?
    Ms. Kunickis. Yes, sir.
    Chairman Roberts. Kansas State played BYU in a Bowl that I 
attended. Our cornerback tripped on the last--one of the last 
plays of the game, and your quarterback threw for a touchdown. 
Otherwise, the Wildcats would have defeated the Cougars. We are 
into four-legged hairy animals. I think we are going to quit 
right there.
    Ms. Kunickis. Okay.
    Chairman Roberts. As the Department of Agriculture works to 
facilitate U.S. agriculture exports, it is absolutely critical 
to maintain the free flow of trade. Trade has become a big 
issue, not only in general, but more especially with this 
Administration. We have a very key vote coming up with regards 
to Robert Lighthizer to get trade moving again, make trade 
great again.
    APHIS works hard to keep open markets by ensuring U.S. ag 
products are free from pests. Without access to appropriate 
products to manage pests, my question is, is the U.S. at risk 
of trade restrictions on our exports? Could you please talk 
about the threat of losing existing markets if pests are 
discovered in our exported animal products and the role that 
pesticides play in keeping our agriculture trade open and 
consistent?
    Ms. Kunickis. Yes. Thank you, and that is a great, very 
important question. We are absolutely delighted to have Dr. 
Perdue--or now Secretary Perdue at the head of USDA. It has 
been delightful to have him in office for the last, I guess, 
almost three weeks.
    Secretary Perdue has talked already about the importance of 
expanding trade. He is committed to doing that, and we have no 
doubt that he will follow up on his commitment.
    Secretary Perdue is the chief salesperson, and when he 
meets with folks, I expect that he will honor his commitments 
with them to provide a safe and abundant food supply to those 
folks that are our trading partners.
    As you said, the risk there is if we cannot, if we have 
pests that are in our commodities and in our food supply, 
without pests we would not--I mean without pesticides, we would 
not have the fumigants needed to--we would not be able to 
ensure the safety of the food that goes overseas. We would not 
be able to ensure that our food is pest-free.
    Pesticides are absolutely essential to those who are 
growing the food, for those that are shipping the food, and for 
those that are eating the food. So I have no doubt that 
Secretary Perdue will follow up on his promise, and that the 
United States agriculture will be able to trade with a healthy 
food supply as long as we have pesticides.
    Chairman Roberts. I appreciate your response very much.
    Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman, and thank you to 
both of our witnesses.
    Mr. Keigwin, I first want to thank you personally for your 
engagement with Michigan State University and our Michigan hop 
growers that created the gift that we just gave to the Chairman 
to facilitate Section 18 exemptions under FIFRA.
    Most recently, I have heard from Michigan sugar beet 
growers about emergency use needs under Section 18 as well. 
What steps can be taken by growers, states, manufacturers, and 
the EPA to make the Section 18 process more efficient, so that 
growers facing unexpected risk can get needed crop protection 
tools in a timely fashion?
    Mr. Keigwin. Thank you, Senator, and I have had the great 
fortune of meeting with Michigan growers on a number of 
occasions. Your growers sponsor an annual tour to help educate 
EPA employees about Michigan agriculture and what farmers do to 
help grow our crops, so thank you for that.
    In terms of Section 18s, we have a pretty solid record of 
completing our decision-making for most Section 18 or emergency 
exemptions in less than 50 days, but there are times--and I 
think this situation with the sugar beet one, growers, that 
came to your attention highlights the need for early engagement 
between EPA and the Michigan Department of Agriculture and the 
grower community and the land-grant universities.
    Knowing early on what tools a grower might need to address 
the emerging pest situation, it is hard when at the end of the 
process or right when they need to apply the product for EPA to 
say, ``Wait. Hold on. We might have a problem.'' So one process 
efficiency would probably be for us to have earlier engagement, 
maybe even before the state submits their Section 18 request to 
see if there might be any issues with that particular chemical, 
and to the extent to which there are, we could work 
collaboratively with cooperative extension and with the state 
to maybe find some alternatives that we could move through the 
process more quickly to address the emerging pest management 
need.
    Senator Stabenow. Thank you very much.
    Dr. Kunickis, when developing new integrated pest 
management strategies with growers, does the USDA staff 
recommend Farm Bill conservation programs to farmers as a tool 
to combat weed resistance, and secondly, do you have 
recommendations for how the conservation programs can be 
improved to help address weed resistance as well as the 
continued decline in the pollinator populations?
    Ms. Kunickis. Thank you for your question.
    Yes. We do engage with our conservation program folks, both 
NRCS and the Farm Services Agency staff. IPM is a critical 
component of those. NRCS has a conservation practice related to 
IPM.
    Weed resistance is front and--in front of our--is one of 
the high-priority issues for our office. We have met with the 
agency folks to make sure they are fully aware of the issue of 
weed resistance. As we all know, resistance, weed resistance is 
not just about pigweed in Georgia. It is about having weed 
resistance all across the entire United States, and it is not 
just about pigweed. It is in all species. So we work really 
hard to work with the conservation agencies and helped to 
educate their staff about the issue of weed resistance.
    IPM, we coordinate across the Department and with other 
Departments on Integrated Pest Management. We work with the IPM 
centers that are funded by the National Institute for Food and 
Agriculture. We meet regularly with them. They help us develop 
the pest management strategic plans. We engage with growers on 
those to make sure that those are accurate and up to date.
    Thank you.
    Senator Stabenow. Well, thank you very much, and we look 
forward to hearing more comments from you as we move forward on 
the Farm Bill with suggestions or recommendations that you 
would have on conservation programs.
    Ms. Kunickis. Thank you.
    Mr. Keigwin, can you talk about the role of the EPA's Board 
of Scientific Counselors in reviewing the safety of crop 
protection materials?
    Mr. Keigwin. For pesticide products and pesticide science, 
our studies and our methodologies for how we conduct our 
reviews have not been reviewed by the panel that you referred 
to. In fact, under FIFRA, there is a separate congressionally 
chartered peer review body called the FIFRA Scientific Advisory 
Panel, and so our work is peer-reviewed separately, not through 
the BOSC, but through the FIFRA SAP.
    Senator Stabenow. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, and thanks to our 
witnesses for being here today. I appreciate it.
    Mr. Keigwin, in your testimony, you highlighted the fact 
that your agency has met the time frame for approval 98 percent 
of the time on the more than 20,000 decisions since PRIA was 
enacted in 2004, and I think that is a pretty tremendous track 
record. I know there had been some extensions of timelines 
beyond the target of 730 days but still a very good percentage, 
so thank you for that.
    But what I would like to know is what you believe can be 
done to remove duplicative regulations, free up some of those 
funds, or take other actions to further improve the time for 
getting new products on the market, so we can make our farmers 
and growers even more productive.
    Mr. Keigwin. Thank you, Senator.
    When Administrator Pruitt joined the agency, one of the 
things that he launched straight away was his Back-to-Basics 
Agenda, which is an initiative to help focus EPA's efforts on 
returning to our core mission of protecting human health and 
the environment.
    As part of that effort, we have been beginning to reach out 
to stakeholders across the spectrum to identify areas of 
regulation that either may be duplicative, could be streamlined 
or modified, while still protecting public health and the 
environment.
    In fact, last week, the Pesticide Program hosted a public 
meeting of a wide variety of stakeholders. Several hundred 
people participated in that meeting to help provide some 
insight to us on where we might look next in terms of 
streamlining, gain some additional efficiencies in our program, 
and among those were opportunities to look at some MOUs with 
other agencies where there might be opportunities to share our 
work and share our load or rely upon the work of another 
agency. So those are among the things that we are beginning to 
explore now.
    Senator Ernst. Very good. In your opinion, does that seem 
to be a positive start? Is it being received well by your 
agency and other agencies?
    Mr. Keigwin. It has, and, in fact, we have had some MOUs in 
place with other agencies. So this would not be a new territory 
to explore, but we can build upon some of our existing 
relationships and probably go further.
    Senator Ernst. Very good. Thank you, Mr. Keigwin.
    Dr. Kunickis, you noted in your testimony that agriculture 
depends on a strong scientifically based EPA to evaluate 
pesticides, and what can you do in your role to encourage that 
and ensure that politics--of course, politics, in the news all 
the time--that politics do not get in the way of sound science 
when it comes to reviewing pesticides?
    Ms. Kunickis. Thank you. I appreciate that question. 
Science is the foundation of everything that we do at USDA, and 
I expect that is the same for EPA.
    For us, we look at what any kind of rules or proposed rules 
or risk assessments that EPA does, and we look at it through 
the view of our agricultural sectors to see if it is--how it 
would work. Then we also look at models, the inputs, to see if 
they are valid, and if they are reflective of agriculture. But 
we also look at the science that is underlying the work that 
EPA has done. We provide them information that we are aware of 
from the agricultural community and others, and then we have 
nice discussions with EPA about how we can work together to 
either improve or make changes or maybe better understand why 
they are doing what they are doing.
    But we do look through it through scientific eyes. My 
entire staff is very--they are experts in their disciplines, 
and we ensure that each one of them is fully aware of what EPA 
is doing and that we can speak on behalf of ag to ensure that 
they are scientifically based decisions.
    Senator Ernst. Well, I appreciate that, and we had the 
pleasure of hosting Secretary Perdue last Friday in Iowa, and 
it was wonderful to see the interaction that he had with our 
farmers and growers. He did mention several times that we want 
to make sure that things are scientifically based, any 
decisions that are made, and the fact that he encouraged 
collaboration amongst the agencies. So it was really great to 
see that.
    Thank you both for being here today. I appreciate it.
    Thank you, Mr. Chair.
    Chairman Roberts. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chair.
    Thank you to both of you, and we are glad we are continuing 
to work together on this very important bill and this program.
    One of the missions of USDA's Office of Pest Management 
Policy is to promote the development of new pest management 
approaches that meet the needs of our evolving agriculture 
industry.
    Mr. Keigwin, would EPA be able to examine the numerous 
pesticide products intended for sale in the U.S. without the 
resources that PRIA provides? It is called an easy question.
    Mr. Keigwin. Thank you, Senator.
    [Laughter.]
    Mr. Keigwin. We certainly want to be able to do them on the 
time frames that we do the--the supplemental resources that 
PRIA provides certainly help us achieve the timelines that I 
was talking about earlier in my testimony.
    Senator Klobuchar. Okay. To get on to that timelines, I 
have heard from Minnesota businesses about the importance of 
having a more predictable timeline during the registration 
review process. What work have you done to make the regulatory 
approval process more predictable for industries and producers 
and the public?
    Mr. Keigwin. So an important component of the registration 
review process is transparency and public engagement, and so we 
do have multiple opportunities throughout the review process 
for them to engage, for them to come forward to us with 
information, so that we are using real-world information in 
making our decisions, so that we are making the most informed 
decisions that we can.
    Senator Klobuchar. Okay.
    Dr. Kunickis, your name is almost as hard as mine. 
Kunickis. What have you heard from farmers about the need for a 
timely review, and how does your team at USDA work with EPA?
    Ms. Kunickis. We hear a lot from farmers, and actually, we 
reach out to a lot of the grower groups, folks that we know 
across the country, to talk to them about their needs.
    We work very closely with EPA. We have a great working 
relationship. I keep in contact regularly with Rick right now 
on a regular basis. I always ask about what is the status of 
this pesticide that is in registration review, are there any 
concerns, are there any data that you need from USDA that we 
can provide to help inform some of the decisions that you are 
going to make, and we are very interested in if there is any 
mitigation measures that may be needed so that we can look and 
see if they are realistic for our growers.
    This afternoon, my staff and I will be at EPA. We have our 
regular monthly meeting where we have a number of items on an 
agenda to discuss. So we work really well together, and we 
continue to look forward to working together.
    Senator Klobuchar. How do you think the USDA's role in the 
pesticide approval process would be affected by the resource 
and staffing cuts that are suggested in that proposed 31 
percent budget cut in the budget? I know that our new 
Agriculture Secretary--I asked him this question, not with 
regard to pesticides, but just with regard to the general ag 
issues, and he did say that he hoped the Senate would fix it. I 
like that answer.
    But how do you think--how do you think the USDA's role 
would be affected by the resource--the proposed resource and 
staffing cuts?
    Ms. Kunickis. Well, certainly, any cuts that would come, we 
would have to--honestly, we would just have to figure out the 
best way to go forward.
    Our office has been--we are very well trained, 
interdisciplinary, and are able to work together on different 
issues, even though it may cross many disciplines.
    If the cuts come, it will make it a little more 
challenging. I would like to hire, and if we cannot, we do work 
with other staff across USDA to fill where we have gaps. So we 
will adjust. We always have. It has happened to us in the past, 
and if it happens again, we will adjust. Certainly, we hope 
that will not happen, but we are willing to do what we can on 
behalf of our growers.
    Senator Klobuchar. Mr. Keigwin, in your testimony, you 
mention that the reauthorization bill passed by the House would 
increase the types of registration actions covered under PRIA 
to 212 categories, up from 189 categories in the last 
reauthorization. Would the fee increase from $27.8 million to 
$31 million per year cover the additional 23 categories 
proposed for registration, and do you see the demand outpacing 
the additional increases for maintenance fees?
    Mr. Keigwin. So thank you, Senator. The maintenance fees 
actually primarily go to fund the reevaluation program. The 
additional categories will have their own new PRIA fees 
associated with them, so they will diverge in those two 
different directions.
    Senator Klobuchar. Okay. I see. But the question was, Do 
you think that fee increase--the initial question--would cover 
the additional 23 categories? So you think it would?
    Mr. Keigwin. So the fee increase is on the maintenance fee 
side, primarily, so that is for the reevaluation program.
    Senator Klobuchar. Okay.
    Mr. Keigwin. The 23 new categories will have their own PRIA 
fees, and then there are fees--there is an increase in some of 
the fee categories for the new registration side. So the 23 
categories are new registration categories. The fee increase, I 
think that--I believe you are referring to happens to deal with 
the maintenance fee side to fund the reevaluation program.
    Senator Klobuchar. So you think it is all----
    Mr. Keigwin. I think it will certainly help us get the work 
done.
    Senator Klobuchar. So it is all going to be paid for? It 
will not--okay. All right.
    Mr. Keigwin. Coupled with appropriated dollars. We cannot 
fully fund the--we cannot fully do the work----
    Senator Klobuchar. But if you get the 30 percent decrease 
in the proposed budget that you are supposed to at EPA, would 
you be able to do all your work?
    Mr. Keigwin. You know, as Sheryl said, we would have to 
figure out how to do things and look for additional 
efficiencies.
    Senator Klobuchar. Okay.
    Chairman Roberts. Senator Perdue.
    Senator Perdue. I yield, Mr. Chairman.
    Chairman Roberts. We have a Perdue that is not talking. 
That is very unusual.
    [Laughter.]
    Senator Klobuchar. He is trying to be nice to the other 
members.
    Chairman Roberts. I see. It is with great respect that I 
now ask Senator Van Hollen for his questions.
    Senator Van Hollen. Thank you, Mr. Chairman. Thank you, 
Senator Perdue.
    I just want to echo what Senator Ernst said, which is that 
we all want to make sure that we have a pesticide regulation 
regime that is scientifically based, and we all know that 
sometimes the conclusions are different from USDA versus EPA. I 
do want to ask you about that because, as we all know, recently 
there was a headline in the Washington Post that says EPA 
chief, the new EPA chief rejecting agency's own analysis, 
declines to ban pesticide despite health concerns.
    Dr. Keigwin, you are quoted in this story as supporting the 
decision, but, Mr. Keigwin, could you talk a little bit about 
this EPA recommendation to regulate, ban chlorpyrifos because, 
there have been serious health concerns raised about it, 
including the impact on newborns, neurological impacts, and 
clearly, the EPA, when it issued its report last December 
seemed to be on the way of suggesting that we need to ban this 
to protect human health. We need to make sure we protect crops 
from pests, so that we have a vibrant agriculture community. We 
also need to protect human health, and the way EPA drew that 
line, at least back in December, was that banning this was 
necessary or moving in that direction to protect human health. 
Can you comment on that?
    Mr. Keigwin. Sure. Thank you, Senator.
    So we have been studying chlorpyrifos for quite some time 
and took regulatory action to mitigate some of the exposures to 
chlorpyrifos back in the last decade when we removed it from 
uses around the--most uses around the home, and about four or 
five----
    Senator Van Hollen. The indoor, the indoor use.
    Mr. Keigwin. The indoor uses, like the termiticide type of 
uses.
    We also worked very successfully with the registrants about 
four or five years ago to put in place some buffers to protect 
residential areas around agricultural fields to deal with some 
spray drift issues.
    I think what you are referring to, Senator, is a rulemaking 
that we were in the midst of that we began in 2015 when we 
proposed to revoke the tolerances for chlorpyrifos, because the 
science that we had at the time suggested that we potentially 
could not make the required safety finding under the Food, 
Drug, and Cosmetic Act.
    We continue to do our work, and we took a revised 
assessment to our FIFRA Scientific Advisory Panel in the spring 
of 2016. They recommended some improvements to that risk 
assessment, and so in November of 2016, we issued a revised 
draft risk assessment for public comment, and that public 
comment period closed in mid-January.
    We received almost 50,000 comments on that draft risk 
assessment, and a number of those comments raised some 
questions about how EPA had done the science, had concerns 
about how we had derived the regulatory endpoint from an 
epidemiology study, and strongly urged the agency to have that 
risk assessment further peer-reviewed before we completed 
regulatory action.
    The decision that the Administrator made at the end of 
March was--while related to the rulemaking, was in response to 
a petition from the Pesticide Action Network of North America 
and the Natural Resources Defense Council. That action is now 
in litigation, so I have got to be very circumspect about what 
I say because it is an active litigation. But, in the meantime, 
we are continuing to review the science surrounding 
chlorpyrifos, taking into account the comments that we received 
during the public comment period.
    Senator Van Hollen. So the review is ongoing now----
    Mr. Keigwin. The review----
    Senator Van Hollen. --and has not been stopped?
    Mr. Keigwin. The review has not been stopped. It is ongoing 
as part of the re-registration process.
    Senator Van Hollen. All right. Well, Mr. Chairman, I hope 
we will all adhere to the advice from our colleague, which is 
this be done based on the science and not the politics. I hope 
we can all agree with that proposition. We need to, obviously, 
prevent pests from chewing up our crops, but we also need to 
protect human health. So I look forward to continuing this 
conversation with you.
    Just if I could ask, Mr. Chairman, have any of our--where 
are European partners in--are any of them in process of looking 
at banning this?
    Mr. Keigwin. A number of other countries have reevaluations 
under way. Australia, as an example, just within the last 
couple of weeks, released a risk assessment for chlorpyrifos. 
Their risk assessment is different from ours, and so we are 
looking at the science that the Australian government 
considered and seeing what parts of that would be appropriate 
for us to use here.
    Chairman Roberts. I thank the Senator.
    Senator Perdue.
    Senator Perdue. I yield again, Mr. Chairman.
    Chairman Roberts. Gracious.
    Senator Heitkamp, would you like to proceed at this point?
    Senator Heitkamp. Well, I would love to. Thank you, Mr. 
Chairman, for the gracious offer.
    Chairman Roberts. Well, thank you for coming.
    Senator Heitkamp. I have just a quick question about wheat 
for the Doctor. We are hearing more and more about pesticide 
residues in wheat and lots of questions about the use of crop 
protection tools on the crop itself. Much of the information as 
cited as the basis for criticism of wheat production traces 
back to misrepresentation of USDA's NASS data. Often the worst 
case is assumed, and every acre of crop is treated.
    When USDA surveys growers about the use of crop protection 
tools, are you seeking to track overall use and trends, or are 
you gathering more in-depth information about management 
practices associated with crop protection tools, such as no 
till or reduced tillage and crop rotations?
    Ms. Kunickis. Thank you for the question.
    I want to just say that our colleagues at the National Ag 
Statistics Service do terrific work, and the survey that they 
do, the ag survey, is extremely, extremely important, the data 
that they provide.
    I do not work for NASS, and why they ask the questions that 
they do and the reasoning behind them, I am not actually sure. 
I am glad to get the answers for you, but I assure you that the 
information that they use is information that we use in how we 
support some of the information that we provide in support of 
what EPA does.
    I am glad to get the information from NASS, and they can 
better explain on how they come up with the questions and how 
they use the data.
    Senator Heitkamp. The other question that I have is, What 
role does USDA play in the endangered species consultation 
process during the registration review, and do you think you 
have sufficient data and real-world scenarios and management 
practices that reflect the use of products in the field?
    Ms. Kunickis. USDA does not have a formal role in ESA 
consultation. Consultation occurs between EPA and the services, 
meaning Fish and Wildlife Service and the National Marine 
Fisheries Service. We are a side partner, I will say. We can 
provide data, any information on crop production, any crop 
production practices, how pesticides are used. We are always 
available to provide that information, but we do not have a 
role, a formal role in consultation.
    Senator Heitkamp. Do you think you should have a formal 
role in consultation?
    Ms. Kunickis. I think it would be extremely helpful, 
extremely helpful to have a voice at the table on behalf of our 
agricultural producers.
    Senator Heitkamp. I do too.
    Ms. Kunickis. Yes, ma'am.
    Senator Heitkamp. Yeah.
    Thank you so much, Mr. Chairman.
    Chairman Roberts. Thank you, Senator. I can anticipate a 
Heitkamp amendment to our reauthorization process.
    Senator Heitkamp. Who me?
    Chairman Roberts. Senator Daines, I am going to recognize 
you, and that Senator Perdue has yielded twice.
    Do you want to go for a third time? That is the record, by 
the way.
    Senator Perdue. I like records. I will yield again, Mr. 
Chairman.
    [Laughter.]
    Chairman Roberts. Senator Daines.
    Senator Daines. Well, I am grateful for Senator Perdue. 
Thank you.
    Mr. Chairman, thank you for holding this hearing today, and 
I want to thank you for coming before this Committee and 
providing your perspective and expertise on this critical 
issue. I represent the State of Montana. Our number one 
industry is agriculture. This is a big deal for us, and 
certainly, providing regulatory certainty is an essential role 
of government.
    Our farmers and ranchers and businesses back home, if they 
complain about anything else--I mean, it is taxes, regulations, 
but it is the uncertainty of this city, what it produces in the 
field here for our ag industry. Reauthorizing the Pesticide 
Registration Improvement Act will be an important step towards 
reducing some of that uncertainty that exists today.
    Pesticides play a vital role for farmers in keeping our 
pest populations down, improving our yields, certainly reducing 
the impact of diseases. In fact, in Montana, there is over 
6,000 private pesticides applicators, and ensuring they and our 
producers have access to a safe and effective pesticides in a 
timely manner is simply imperative.
    Dr. Kunickis, one thing I hear frequently from farmers and 
ranchers in Montana is the burden of duplicative or unduly 
burdensome regulations. In your testimony, you state that the 
EPA is required to review the impact of pesticides under the 
Endangered Species Act, despite the EPA already being required 
to review the pesticides to avoid, and I quote, ``any 
unreasonable risk to man or the environment,'' end quote, under 
FIFRA. Would you view this as an example of a duplicative 
regulation?
    Ms. Kunickis. Yes, sir, I would.
    Senator Daines. Mr. Keigwin, on a similar note, does using 
ESA to regulate pesticides pose any challenges for your office 
and the EPA more broadly?
    Mr. Keigwin. ESA consultations and the assessment processes 
are new for us. We have been working with the Fish and Wildlife 
Service and the National Marine Fisheries Service to develop 
sound scientific procedures for how to evaluate the effects of 
pesticides on endangered and threatened species, and with the 
assistance of the National Academy of Sciences, they did give 
us some advice a few years ago about how to do that. But it is 
a much more complex evaluation process than what we have 
traditionally done for pesticides under FIFRA.
    Senator Daines. Thank you.
    Dr. Kunickis, I do not have a lot of claim to fame, other 
than I am the husband of Cindy Daines, but I am the only 
chemical engineer on the Hill amongst 535 members. That is what 
my training was in. I do understand the importance of utilizing 
sound science in our decision-making processes, and as you well 
know, there was an extended and vigorous debate surrounding the 
mandatory labeling of biotechnology last year.
    I got to thank Chairman Roberts and his leadership. We were 
successfully able to prevent what I believe was a 
discriminatory and harmful law from impacting our farmers 
across Montana and across the country.
    As you know, the Office of Pest Management Policy plays an 
important role in developing and implementing biotech policy at 
USDA in collaborating with EPA. As you work to develop and 
implement rules related to biotech disclosure in advance of 
next year's deadline, will you commit to ensuring that USDA's 
priority will be to make determinations based on sound science?
    Ms. Kunickis. Absolutely.
    Senator Daines. Thank you for that. I have found in this 
town that political science sometimes becomes the primary 
message, and I want to always come back to the sound science 
and the facts. USDA has to be focused on the safety of the food 
and products with its jurisdiction, not on marketing and 
mandatory labeling efforts that have no bearing on food safety 
or plant pest risk.
    Mr. Keigwin, what would be the implications the average 
farmer or producer in Montana if PRIA were not reauthorized?
    Mr. Keigwin. One of the advantages of PRIA is that it does 
give growers some certainty about the availability of when new 
products will become tools for them.
    In the absence of PRIA, if you go back to what the 
regulatory atmosphere was like prior to PRIA--I will give an 
example that a grower shared with me just yesterday. A new 
active ingredient before PRIA took about six years for EPA to 
complete the review for. Now it takes about two years, so the 
review process has been shaved rather significantly, while 
still ensuring that registration is protective of human health 
and the environment.
    Senator Daines. Mr. Keigwin, last question. As you know, 
there were instances in the past Administration where concerns 
were raised regarding the consultation of communication between 
EPA and USDA. What steps does your office take to consult with 
the Office of Pest Management or other agencies within USDA?
    Mr. Keigwin. So Sheryl and I talk regularly. This is not 
just the first time today that we will be talking. We have a 
meeting this afternoon. We get together at least on a monthly 
basis.
    Senator Daines. So do you even need two offices? Is that 
what you are saying? You could----
    Mr. Keigwin. I am not saying that.
    [Laughter.]
    Mr. Keigwin. But our staffs are well integrated. She has 
some former staff of mine.
    I would like to get some of them back, Sheryl.
    But it is a very good working relationship, and while we do 
not always agree, we find a way to work through the issue in a 
collaborative manner.
    Senator Daines. All right. Thank you.
    Chairman Roberts. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, and thank you 
to both of you for your service.
    Dr. Kunickis, in your testimony, you stated that it is 
extremely important to the USDA that agriculture not be defined 
by those who are less than well informed about agriculture. I 
have to assume that you mean the 98 percent of Americans who 
are not actively engaged in farming.
    So my question is, Is the voice of the American consumer 
not of interest to the USDA, and should the USDA ignore the 
concerns of shoppers because they are not experts on pesticide 
chemistry?
    Ms. Kunickis. Actually, in my testimony, I was actually 
referring to some of the press who just repeat information that 
they hear from the Internet. Actually, a lot of what is said is 
not reported correctly, and that is what I was referring in my 
written testimony.
    Senator Gillibrand. USDA objected to the legal and economic 
risk posed to farmers by EPA's proposed rule setting lower 
limits for some pesticides used on corn and some fruits. What 
is USDA doing to ensure that moms and dads who pack fruit in 
their kids' lunches are not less important than a chemical 
manufacturer?
    Ms. Kunickis. Oh, let there be no doubt that at USDA, the 
safety of America's food supply is number one and number one 
for our children and for all people that eat our food, eat food 
that is produced for consumption. It is not an issue at all.
    Senator Gillibrand. Thank you, Doctor.
    Mr. Keigwin, in your testimony, you mentioned Administrator 
Pruitt's Back-to-Basics Agenda and how he is committed to 
returning common sense as well as transparent and peer-reviewed 
science to pesticide registration process. You have been in EPA 
leadership for more than 20 years. During that time, have EPA 
scientists ever done anything less than their very best to 
conduct rigorous analysis of the risks posed by pesticides to 
farmers and consumers?
    Mr. Keigwin. Our scientists are among the most highly 
regarded scientists on pesticide regulation, and they do 
routinely seek peer review of their work.
    Senator Gillibrand. Do you believe that Administrator 
Pruitt's recent dismissal of as many as half the scientists of 
the Board of Science Counselors in favor of industry 
representatives was done to improve science?
    Mr. Keigwin. Senator, I cannot respond to that in that the 
work that my office does is peer-reviewed by a different panel, 
the FIFRA Scientific Advisory Panel, which is a congressionally 
chartered peer review committee, and there has not been any 
change to the scientific makeup of that committee.
    Senator Gillibrand. You mentioned in your testimony that 
Pesticide Registration Improvement Act fees cover about 20 to 
40 percent of EPA's total review cost. The President's budget 
would cut EPA funding by 31 percent and eliminate pesticide 
safety programs. With such deep cuts, would there be any way 
that EPA could conduct accurate and timely reviews of 
submissions?
    Mr. Keigwin. So I have not seen what the President will 
ultimately propose. Obviously, a reduction in our congressional 
appropriations would have an impact on the program.
    Senator Gillibrand. How high would PRIA fees need to be if 
these cuts happened?
    Mr. Keigwin. So PRIA fees right now cover about 30 to 35 
percent of the program costs. So a reduction would--potentially 
would necessitate, if that were an issue on the table, for a 
higher fee. There are also opportunities for us to look at 
further efficiencies in our process so that we could absorb 
some of the resources.
    Senator Gillibrand. How would you--how would proposed 
budget cuts affect research and integrated pest management?
    Mr. Keigwin. So EPA does not conduct research on integrated 
pest management. That is something that we rely upon our 
partners at USDA to do.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for holding this hearing. It really is very, very important.
    I do not have any doubt that you all work together well, 
and that is a good thing. You mentioned that sometimes you do 
not agree. Who has got final authority, or do you just kind of 
not do anything when you run into----
    Mr. Keigwin. In the ideal world, we find ways to reach 
agreement, and we do that many, many times.
    Senator Boozman. But we do not live in an idea world.
    Mr. Keigwin. But I think the relationship that the Office 
of Pesticide Programs and the Office of Pesticide Management 
Policy has been such that we successfully work through our 
areas of disagreement, and I think it is very rare when there 
is true disagreement. Sometimes it is just a nuance or a 
different way of looking at an issue, and I think I am very 
proud of the fact that we have been able to work well together 
to put in place the necessary protections for pesticides where 
they are needed and ensure that growers have the tools that 
they need to produce their crops.
    Senator Boozman. No, and that is--again, that is 
appreciated.
    Dr. Kunickis, when I am home, traveling about Arkansas, 
like most of our states, it is such a heavily agricultural 
state. It does not really matter what state it is. It is 
remarkable, the percentage of GDP that our states have.
    But I really feel very strongly that the answers to our 
problems really do need to come from the ground up. Can you 
talk a little bit about how you include the rank-and-file 
farmer? Do they have a seat at the table?
    Ms. Kunickis. Yes, sir.
    Senator Boozman. Regarding pest management?
    Ms. Kunickis. Yes, sir. We regularly--as we go through--as 
EPA puts out risk assessments, we review them, and then we look 
and reach out to growers all across the country, depending on 
what the pesticide in review is, and we ask questions about how 
are you using it, what specifically is the most important in 
the cycle of pest management, which--what is the timing, what 
is the--how many applications, which are the most important 
applications. We reach out from probably all 50 states, looking 
at all different crops. We know that apple production in one 
state is very different than apple production in another, so we 
reach out to growers, to grower groups, and to as many people 
as we can to get the most correct apples--I mean--apples--
answers.
    We also make it very clear that a one-size-fits-all 
approach does not work for U.S. agriculture, and that we need 
to be very site specific on getting answers for how our growers 
do their agricultural production.
    Senator Boozman. We talk a lot about the dangers of 
pesticides, which is very, very appropriate, and we--certainly, 
we are all very concerned about that and want to make sure that 
things are--can you talk a little bit about some of the 
benefits, though, that as a result of being able to use 
pesticides in a safe way, scientifically safe, doing it right, 
some of the benefits that have occurred in the nation as a 
result of making such so we continue to have the safest, 
cheapest food supply and feeding much of the world?
    Ms. Kunickis. Oh, yes. Pesticides have made us--have given 
us the ability to produce food in abundance with some of the 
newer tools. The genetically engineered crops, we are able to 
increase yields. We have got benefits. We have a pest-free food 
supply.
    If you have ever looked at a piece of fruit that has got a 
pathogen on it, it is not very attractive, so fungicides are 
extremely important for addressing pathogen issues.
    We all know the story of opening an apple and finding a 
worm. Most of the things that we eat do not have worms in it.
    I had the great opportunity also to be in Michigan on one 
of the tours, and it was just so incredibly important to look 
at how they produce cherries and talk about the zero tolerance 
for worms. Frankly, I have never even thought about looking for 
worms, and yet I realize that is because we have such a high 
standard and because of the pest protection tools that--or the 
crop protection tools that are used safely by our growers all 
across the United States.
    Senator Boozman. Thank you, Mr. Chairman.
    Chairman Roberts. I think that now concludes----
    Senator Boozman. Shout-out for the cherries.
    Senator Stabenow. Yes, a great shout-out.
    Chairman Roberts. Great.
    Oh, I am sorry. Senator Thune is here. Coop, how did I 
forget you? It is almost high noon, Coop.
    Senator Thune. That means it is my time, Mr. Chairman. 
Thank you. Thanks for having this hearing, and I appreciate the 
attention to this subject. It is an important one.
    If I could ask both of you sort of whether you believe the 
approval process under PRIA is staying current with 
biotechnology research and the development of some of the new 
products?
    Ms. Kunickis. Yeah. That is a great question, and it is a 
very, very important question. Bottom line is technology 
usually moves faster than regulation. PRIA at least gives us 
some certainty as to when some of the products can get on the 
market, and so for those that are producing the newer 
technologies, it helps the regulatory folks to understand when 
we can get those on--when we need to complete our work to get 
those on the market.
    But, certainly, we recognize that technology moves a little 
faster than the regulatory process.
    Senator Thune. Right.
    Do you have anything to add, Mr. Keigwin?
    Mr. Keigwin. Senator Thune, I think the other thing that I 
would add to what Sheryl just mentioned is that over the past 
couple of years, USDA, EPA, working with our colleagues at the 
Food and Drug Administration, have been going through a 
systematic process of updating the system that we use to 
regulate products and biotechnology.
    To specifically address the point that you were making 
about new products coming through the pipeline, the three 
agencies worked together and commissioned a review by the 
National Academy of Sciences to give us some insight on what 
new tools were coming down the pike, so that, in fact, we could 
be better prepared to make regulatory decisions to enable those 
products to come onto the market as quickly as they can.
    Senator Thune. Yeah. I agree. I mean, you cannot keep up 
with sometimes what is happening out there, but we have to do 
the best we can, and there are lots of wonderful things that 
are happening in technology that will make us more efficient 
and more productive.
    So I represent South Dakota, and we are one of the top 
honey-producing states in the nation, and so I wonder if you 
could tell me if any progress is being made to combat the 
Varroa mite, which is something that contributes to what we 
call CCD or Colony Collapse Disorder, something that has really 
affected the bee population in this country and, as a 
consequence of that, honey production. Do you have anything on 
that?
    Mr. Keigwin. So one of the things that EPA has done is that 
when a new tool is even in the discovery process to control 
Varroa mite, we will accelerate the registration of that 
product through the process as quickly as possible.
    We had an example from just a couple of years ago that 
there was a tool that was available to Canadian beekeepers that 
was not available to U.S. beekeepers. Because of the scientific 
relationships that we have developed with our colleagues in 
Canada, we were able to make use of their reviews. This was a 
new active ingredient for us, and we were able to complete the 
registration process for that product in four months because of 
our ability to rely upon the science that our colleagues in 
Canada had already undertaken.
    Senator Thune. Well, it is a huge problem. CCD has just 
destroyed beehives all across the country, and the losses that 
our bee producers are incurring continue to mount and to pile 
up. So much of this is just doing this research and trying to 
find solutions. So I hope you will keep up, keep up with that, 
and the folks out there who are involved in the industry will 
keep up with it as well.
    That is all I have, Mr. Chairman. Thank you.
    Chairman Roberts. Did you ever get Grace back on her 
buckboard? You do not have to answer that.
    [Laughter.]
    Chairman Roberts. I want to thank the first panel very 
much. You have given us excellent testimony, and thank you for 
the work you do. Appreciate it.
    I would now like to welcome our second panel of witnesses 
before the Committee.
    [Pause.]
    Chairman Roberts. I would like to welcome our second panel 
of witnesses before the Committee.
    Mr. Dale Murden, who joins us today from Harlingen, Texas, 
where he and his family currently grow sorghum, cotton, and 
citrus. Mr. Murden has served in a variety of capacities 
throughout his agricultural career, including as the past 
president of the National Sorghum Producers, the past chairman 
of the Texas Sorghum Association, and the current president of 
Texas Citrus Mutual. That is the grower organization for the 
Texas citrus industry. Mr. Murden also spent the last 25 years 
as president and CEO of Rio Farms, a 30,000-acre private 
research foundation farm that grew sorghum, cotton, sugarcane, 
citrus, soybeans, corn, grapes, and vegetables. No wheat.
    Our second panelist is Mr. Gary Black, and I now turn to 
Senator Perdue to introduce our next witness.
    Senator Perdue. At the risk of losing my opportunity to 
establish my all-time record of yielding, I would like to 
introduce our next speaker, Mr. Chairman. Thank you.
    I am proud to introduce Georgia's Commissioner of 
Agriculture, Gary Black. Gary is a personal friend of mine, has 
been for years. He is a dedicated partner and advocate for our 
farmers in Georgia. Throughout a 35-year career in agriculture, 
he is a farmer.
    He has been very focused on Federal policies and working at 
the state level and working on the impacts, food safety, 
science-based environmental stewardship, and agricultural 
marketing.
    Agriculture in our state is the largest economy, and we 
take it very seriously, that Gary Black is our number one 
marketing officer for that industry. He has consistently 
supported us to where we are the number one state in the 
country for peanuts, broilers, pecans, and blueberries.
    Commissioner Black's perspective on pesticide registration 
is especially important since states are partners with the 
Federal Government in this process. Over the last two decades, 
the ag seed and chemical industry has been substantial and seen 
a substantial increase in the cost and time of getting new 
technologies from discovery and development to farmers in the 
field. A large portion of these increased costs is from the 
increasingly complex and onerous federal regulatory 
environment. It is important that EPA and USDA work with their 
state partners like Commissioner Black to ensure the process of 
getting pesticides to market is done in a timely manner while 
still ensuring their safety.
    Thank you, Gary, for being here with us today. Your insight 
is important to Georgia and our country, and I look forward to 
your testimony. Thank you.
    Chairman Roberts. Our third panelist is Mr. Jay Vroom, no 
stranger to the Committee. Mr. Vroom is the president and chief 
executive officer of CropLife America, the largest national 
trade organization representing agricultural pesticide 
manufacturers and distributors, a position he has held since 
1989.
    In addition to his current position, Mr. Vroom remains 
active on several boards and organizations, including the 
Agricultural Retailers Association, the National Wheat 
Foundation, and the Coalition for Advancement of Precision 
Agriculture, just to name a few.
    Raised on a grain and livestock farm in north central 
Illinois, Mr. Vroom remains active in his family farming 
operation.
    I now turn to Senator Stabenow to introduce our final 
witness.
    Senator Stabenow. Well, thank you, Mr. Chairman, and 
welcome to all of our witnesses. I would like to introduce Ms. 
Virginia Ruiz, who currently serves as the director of 
Occupational and Environmental Health for Farmworker Justice. 
Farmworker Justice is a nonprofit organization that works with 
migrant and seasonal workers to improve their lives and working 
conditions, immigration status, health, occupational safety, 
and access to justice.
    Before proceeding, Mr. Chairman, I do have to apologize in 
advance that I have to leave at this point in time. I have 
other colleagues that are coming, and I greatly regret that. I 
have been looking forward to hearing your testimony, but, 
unfortunately, I will have to step out to another meeting.
    So thank you, Mr. Chairman.
    Chairman Roberts. Mr. Dale Murden. Mr. Murden, please 
proceed.

    STATEMENT OF DALE MURDEN, PAST CHAIR, NATIONAL SORGHUM 
PRODUCERS; PAST CHAIR, TEXAS SORGHUM PRODUCERS; AND PRESIDENT, 
                TEXAS CITRUS MUTUAL, MISSION, TX

    Mr. Murden. Thank you, Chairman Roberts, Ranking Member 
Stabenow, and members of the Committee for the opportunity to 
testify today.
    On behalf of the more than 700 commercial citrus growers in 
Texas and the nearly 50,000 sorghum producers nationally, I 
want to express our appreciation for convening this hearing.
    My name is Dale Murden. I am current president of Texas 
Citrus Mutual, past chairman of National Sorghum Producers, and 
a past state director of the Texas Farm Bureau, but more 
importantly, a lifelong farmer.
    Mr. Chairman, I did grow wheat once, but unfortunately, I 
had to bale it for the horses.
    Citrus and sorghum growers face a broad range of 
challenges, many of which are unique to their crop. However, my 
testimony today will focus on issues and concerns that they 
share, the viability of both crops are threatened by new and 
invasive pests and the importance of access to crop protection 
tools to combat these pests.
    For citrus, it is the threat of HLB, or citrus greening, 
which is vectored by the Asian citrus psyllid. There is no 
known cure for this disease, and Texas growers have witnessed 
the experience of our friends in Florida, where 100 percent of 
production acres are now infected, and production has been cut 
by more than half. The first confirmation of HLB in Texas was 
in 2012, and we now have more than 100 groves confirmed 
infected.
    For sorghum, the sugarcane aphid, first confirmed in the 
United States in 2014, has spread throughout the producing 
regions in the United States, impacting over 70 percent of the 
acres planted. Although expensive, without the necessary pest 
management products, sorghum growers would see an 80 to 100 
percent yield loss.
    These are just two examples of significant pest threats, 
but every crop faces pest and pathogen challenges. Farmers look 
to researchers, crop protection industries, and regulators to 
investigate, develop, and approve tools that are safe and 
effective.
    We need EPA to be sufficiently staffed with smart, 
qualified, and dedicated people who can evaluate products in a 
timely manner. The Pesticide Registration Improvement Act helps 
to foster and create a pathway for new and effective products 
to come to the market.
    Smaller acreage crops, like sorghum and specialty crops 
like citrus, are rarely the primary targets of new 
registrations. However, PRIA provides a level of certainty and 
accountability to the registrants, giving them the confidence 
to invest the resources to gain approvals for crops like the 
ones I grow.
    I wish to express my strong support for the swift passage 
of PRIA. Farmers need the certainty that new and innovative 
pest management products and the re-registration of existing 
products that meet the necessary benefits to risk thresholds 
continue to flow, and PRIA plays a vital role in providing 
certainty.
    I do want to share my perspective on a number of factors in 
recent years that have undermined regulatory certainty for the 
grower community. We have seen EPA publish press releases 
associated with preliminary risk assessments without the 
related benefits assessments, which then paints a negative 
picture of these pesticide use patterns and undermines public 
trust in these products. There have been instances where EPA 
short-circuited the risk assessment process and instead based 
decisions on the identification of hazards only.
    These are significant departures from what is expected 
under FIFRA and have prevented some crops, including sorghum 
and citrus, from receiving access to vital tools.
    FIFRA is the primary underlying statute for pesticide 
registration and requires that EPA study and evaluate pesticide 
products for potential impacts to the environment, non-target 
organisms, and human health, yet it seems that every time a new 
product is approved or re-registered, the decision is 
challenged. This issue is causing significant uncertainty for 
growers, and I have to believe that our system can do better. I 
would encourage Congress to find a way to address this issue.
    I appreciate that we have a regulatory system at EPA that 
is largely transparent and encourages stakeholder engagement in 
the product review process. However, the notice and comments 
period often require responses that are so technical in nature 
that only toxicologists and risk modelers are suited to do so. 
While theoretical models are undoubtedly important, they should 
not replace the need for real-world data and the results of 
field studies. I believe that greater interaction with these 
stakeholders that actually use the crop protection tools they 
are assessing, EPA would be able to include stronger and more 
realistic scenarios in the risk assessments.
    Thanks again, Chairman Roberts, for holding this important 
hearing and the invitation to participate. We appreciate all of 
the work this Committee does on behalf of the American farmer. 
Once again, I urge the Committee and the Senate to take the 
necessary actions for the swift approval of H.R. 1029, PRIA 4.
    [The prepared statement of Mr. Murden can be found on page 
63 in the appendix.]
    Chairman Roberts. We thank you, Mr. Murden, and thank you 
for that perspective with regards to what we are about affects 
the producer directly.
    We now have the head of the Georgia Department of 
Agriculture, and we would like for you to proceed, Commissioner 
Black.

 STATEMENT OF THE HONORABLE GARY BLACK, COMMISSIONER, GEORGIA 
             DEPARTMENT OF AGRICULTURE, ATLANTA, GA

    Mr. Black. Mr. Chairman and members of the Committee, it is 
a pleasure to be here today. I may be the one in the room that 
is most relieved that the Senator from Georgia did not yield 
for the fourth time. I thank you, Senator Perdue, for you kind 
introduction and dear friendship, and thank you for your 
service to our state and our nation.
    Mr. Chairman, I am Gary Black. I am Commissioner of 
Agriculture for the State of Georgia. I have been in that role 
for six and a half years. It is an elected position in Georgia.
    Today, I come to you--we have submitted some very detailed 
written testimony today, but when I have meetings with 
constituents, I like people to just come visit with me. So for 
my four minutes and 20 seconds, Mr. Chairman, and the balance 
of this time, I would like to visit with you.
    Chairman Roberts. Well, please proceed with your----
    Mr. Black. I am today representing our directors and 
secretaries and commissioners who are on the ground every day. 
We work together with farmers, and we are the co-regulators 
with some of our Federal agencies. Certainly, EPA is one of 
those partners.
    We have some overarching things, Mr. Chairman. It is 
critical for Federal and State agencies to deliver a 
predictable, transparent, and science-based regulatory 
framework to protect human health and the environment, while 
allowing the agricultural community to produce their products. 
That is a tenet I think we can all agree with.
    State departments of agriculture are regulatory partners 
with EPA, USDA, FDA, and the many other Federal agencies. In 43 
states and Puerto Rico, the state department of ag is the FIFRA 
lead agency.
    We have been discussing a topic called Cooperative 
Federalism. It is kind of an in-depth thing that you maybe will 
be hearing NASDA talk quite a bit about in the future. Where I 
come from, boil it down this way, I think we ought to work 
together better. I think we ought to be able to work with 
Federal agencies, and I think the states ought to be included 
in a more meaningful way. Maybe we can give just a little more 
detail in just a moment on that.
    PRIA is an essential vehicle to provide the infrastructure 
resources for EPA, and states rely upon this to execute our 
statutory mandate in registering, enforcing, and regulating 
pesticides. We strongly support H.R. 1029 and look forward to 
its passage certainly in a very bipartisan way.
    We want to help our Federal partners develop a regulatory 
framework that provides the necessary protections and minimizes 
the economic impact and regulatory burdens to our producers. 
That is an overarching key theme.
    We need a well-resourced and fully staffed Office of 
Pesticide Programs to deliver a scientifically sound, 
efficient, and timely review of crop protection products, and I 
would also add to that, the Office of Pest Management Policy, 
or the programs down at USDA as well. It is important to have 
that as a priority, and I believe Secretary Perdue is going to 
really put some energy behind that through his leadership.
    Mr. Chairman, I asked my division director for plant 
industry, who deals locally with EPA--I asked him, ``If you had 
a magic wand and you were me, what would you say today?'' He 
really is a big champion of our theme at our department 
regarding how we interact as regulators with the regulated 
community, and it is just a simple three-step process.
    First, we should exist to help people get in business. We 
have regulatory frameworks. We want the economy to thrive. We 
want people to be employed. We want people to have jobs. As a 
regulator, I think we can do that. We ought to be helpful.
    Secondly, we should help people stay in business. We should 
educate as we regulate, and that is a theme that we have 
adopted at our department. We can show that it works. He said, 
``I would like to see that with our Federal partners at EPA and 
many other agencies as well.''
    Now, we sometimes get blamed for the third leg of that 
stool, and that is putting people out of business. But we do 
have laws, and people must follow laws. As a regulator, you can 
be assured that this is not a soft approach to regulation 
because I sign administrative orders every week, but we ought 
to come alongside our agricultural businesses and our farmers 
and make sure that we are friends along that process.
    Certainly, we are pleased to be here today, Mr. Chairman, 
and I thank you for your service, and I am thankful we have an 
opportunity to cooperate. We just want to make sure that the 
states are at the table as we move forward. Thank you.
    [The prepared statement of Mr. Black can be found on page 
42 in the appendix.]
    Chairman Roberts. Well, thank you, Commissioner. Thank you 
for being on time, and we have noted with interest the Black 
three-step program that we will be considering. I think the 
Committee--I think all of us would agree with your premise, and 
we thank you for your testimony.
    Jay, welcome back.

STATEMENT OF JAY VROOM, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
                CROPLIFE AMERICA, WASHINGTON, DC

    Mr. Vroom. Thank you, Mr. Chairman and members of the 
Committee. It is indeed an honor for me as president of 
CropLife America, representative of our 110 member companies, 
to be back in front of the Committee and specifically to talk 
about PRIA today.
    In short, a lot has already been said, not everything, but 
a lot has already been said. The simple conclusion here is that 
PRIA is the easy button for this Committee, but we also ask you 
in our written testimony and otherwise for this Committee to 
also work with the Appropriations Committee to ensure that the 
PRIA appropriations targets--for the appropriated dollars get 
back up to where the law has asked for the taxpayers to partner 
with us as industry fee payers to help ensure that the 
resources are there for EPA to do this important job that all 
the witnesses and the members of the Committee have been 
talking about this morning.
    We could go on and on some more about all the facts and 
figures, about all the great abundance of American agriculture. 
That is a given. The people watching on television and your 
constituents and all the constituents of the United States 
Senate really care about one thing, and that is a simple 
number. I have got the world population clock here on my 
iPhone. It says there are over 7.5 billion of us on this 
planet.
    I can remember 20 years ago, Mr. Chairman, when you helped 
pass the Food Quality Protection Act. That number was below 6 
billion. This population is growing rapidly, and we as citizens 
of this planet depend on innovation to continue to feed us and 
to protect us from disease, and that is what PRIA really is all 
about, is providing the government structure and regulatory 
scheme so that companies can innovate, and that those kinds of 
important resulting products can be evaluated by our regulators 
at EPA and with the support and guidance of USDA and that those 
products can be used by farmers to produce safe and abundant 
food for us in America, so we can export more food, wheat from 
Kansas and all kinds of important things from Minnesota and 
Georgia and elsewhere, and that we have a sound economy, and 
that we can continue to grow as an economy and be world 
leaders.
    I just got back from Europe last week. I have been in the 
developing world over the last few years as well. I can tell 
you that the entire world depends on us, the United States of 
America, for innovation, and PRIA is one of the foundations 
that this Congress and this Committee can advance, hit that 
Easy button, to ensure that innovation green light is still 
there for farmers, for industry, for food consumers to continue 
to depend on, because, frankly, Europe has retreated from 
innovation. They are relying on us. Certainly, Africa, Asia, 
everywhere else in the world, whether they want to admit it or 
not, are relying on what you do in this Congress and this 
Committee to help lead.
    So that 7.5 billion number is growing. Over 50 million 
babies have been born this calendar year, and I want to 
introduce to you Max, on my other iPhone. We will celebrate his 
first birthday--he is my first grandson--back on the farm in 
Illinois on Saturday, and I am here because of Max and those 
other 50 million babies that have been born this year that 
really depend on that innovation miracle that America is 
providing to the whole world.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Vroom can be found on page 
73 in the appendix.]
    Chairman Roberts. We congratulate you on your grandchild, 
and we wish the best for Max and everybody else that is coming 
aboard this planet. Thank you for proving time and time again 
that the Malthusian theory is not correct.
    Ms. Ruiz, we are now in the midst of a 15-minute vote
    on the floor of the United States Senate, and we are 
hopefully going to be able to come back and hear your testimony 
and have a Trade Representative confirmed by the
    United States Senate, an extremely important vote.
    So I am going to state that the Committee stands adjourned, 
subject to call of the Chair, and I plan to be back within 
about seven minutes. I hope that will fit your schedule because 
we certainly want to hear your testimony.
    Ms. Ruiz. Thank you.
    Chairman Roberts. The Committee stands adjourned subject to 
call of the Chair.
    [Recess.]
    Chairman Roberts. The Committee will come to order.
    Ms. Ruiz, you are recognized for your statement. Thank you 
very much for coming.

   STATEMENT OF VIRGINIA RUIZ, DIRECTOR OF OCCUPATIONAL AND 
    ENVIRONMENTAL HEALTH, FARMWORKER JUSTICE, WASHINGTON, DC

    Ms. Ruiz. Thank you, Chairman Roberts and other members of 
the Agriculture Committee. Thank you for the opportunity to 
present my testimony this morning.
    My name is Virginia Ruiz, and I am the director of 
Occupational and Environmental Health at Farmworker Justice. 
Farmworker Justice is a national advocacy organization that 
supports farmworkers in the U.S. to improve their living and 
working conditions, health, occupational safety, and access to 
justice. Farmworker Justice has been a member of the PRIA 
Coalition, along with the Natural Resources Defense Council and 
pesticide industry representatives since the initial passage of 
the 2003 Pesticide Registration Improvement Act, and we support 
its reauthorization in the form of the Pesticide Registration 
Enhancement Act.
    Under PRIA, money set aside from pesticide registration 
fees supports worker protection activities. For more than 10 
years, the PRIA set-asides have funded important programs at 
EPA, including pesticide safety training for farmworkers and 
pesticide handlers, the development of worker and employer 
training materials on pesticide safety and implementation of 
the Worker Protection Standard and the Certified Pesticide 
Applicator rule, also education and training for medical 
providers to diagnose and treat pesticide poisonings, and 
support for State public health agencies to maintain pesticide 
injury surveillance programs.
    Farmworkers, and especially those who mix and apply 
pesticides, face substantial risk of becoming poisoned by 
pesticides because they work with them at their greatest 
concentrations and strengths. Farmworkers and their families 
come into contact with pesticides on a daily basis. The 
pesticide residues that remain on their work clothes and skin 
when they return home from work can also expose members of 
their families and cause injury.
    Pesticide exposure causes farmworkers to suffer more 
chemical-related injuries and illnesses than any other 
workforce in the nation. U.S. EPA estimates that up to 3,000 
farmworkers suffer acute pesticide poisoning every year through 
occupational exposures, with symptoms that include irritated 
eyes, rashes, nausea, dizziness, headaches, and shortness of 
breath. These estimates do not include those who suffer long-
term effects of exposure, such as cancer, Parkinson's disease, 
asthma, birth defects, and neurological harms, including 
developmental delays and learning disabilities. EPA has found 
that some of the greatest risks from the organophosphate 
chemicals, such as chlorpyrifos, are to agricultural 
communities and workers.
    Many of these acute poisonings are preventable through 
basic workplace protections and worker safety education, such 
as those required by the EPA's Worker Protection Standard, or 
the WPS. The WPS applies to hired workers and pesticide 
handlers involved in the production of agricultural crops. In 
November of 2015, after more than a decade of stakeholder 
meetings, study, and consideration, EPA finalized revisions to 
the WPS that provide critical improvements designed to reduce 
the risk of illness or injury resulting from workers' 
occupational exposures to pesticides.
    Also, in January of this year, after more than 40 years, 
EPA updated its regulations concerning the certification of and 
training requirements for individuals who apply restricted use 
pesticides, which are some of the more dangerous pesticides 
available on the market.
    The updated Worker Protection Standard and Certified 
Pesticide Applicator rule provide long overdue protections for 
farmworkers, their families, and rural communities across the 
U.S. from exposure to pesticides. These regulations call for 
basic preventive measures that will save millions of dollars in 
medical costs and lost productivity due to illness.
    These common-sense measures include annual basic safety 
training, posting of application and safety information, 
meaningful hazard communication, functioning personal 
protective equipment, adequate supervision of non-certified 
pesticide applicators, and the prohibition of children from 
handling pesticides.
    PRIA funding is necessary to help EPA meaningfully and 
effectively implement these important safety standards, but 
these worker protection activities are meaningless if the 
Worker Protection Standard and the Certified Pesticide 
Applicator rule are weakened and rolled back.
    PRIA set-asides help to provide employer compliance 
assistance and worker safety training. However, these funds 
must complement and not replace EPA funding for other important 
pesticide safety, worker protection, and environmental justice 
programs. Stable funding for the agency as a whole is vital to 
provide occupational and environmental education for workers, 
their families and rural communities, and to prevent adverse 
effects from pesticide exposure.
    Farmworker Justice requests that this Committee reauthorize 
PRIA as quickly as possible and without any changes or 
amendments to existing language.
    Thank you very much for the opportunity to address this 
important issue, and I look forward to answering any questions 
you may have.
    [The prepared statement of Ms. Ruiz can be found on page 69 
in the appendix.]
    Chairman Roberts. Thank you very much for your very timely 
comments, and when you state that PRIA should be moved as 
quickly as possible and without any changes or amendments to 
existing language--I am reading your statement--I can assure 
you we are going to try to do just that. Thank you for your 
leadership on behalf of all of our farmworkers.
    Mr. Murden, you highlight in your testimony the many 
challenges that sorghum producers and citrus growers face--I 
think you went a little farther than my question here--from 
threats like sugarcane aphid and citrus greening. Crop 
protection tools like pesticides and insecticides are certainly 
valuable tools with regards to dealing with these types of 
threats, and as you mentioned in your remarks, there are many 
challenges surrounding the use of these effective tools beyond 
just the administrative challenges related to FIFRA and 
agencies like the EPA and the USDA.
    What are the regulatory challenges that create uncertainty 
for farmers? Can you give me a rating? We have the good 
Commissioner and his three-point plan, but pretty tough to list 
these challenges by their problems. But give it a shot.
    Mr. Murden. Well, I think for us, one that comes to mind 
right now is we had labeled use pesticides that were taken 
away. We do not really understand why, and the frustration we 
are getting of Section 18 back has been very cumbersome and 
slow, and we are trying to work through those issues right now, 
some products that were safe and did work and were economical 
for us. It just did not make a whole lot of sense why we lost 
them in the first place, and getting them back has been a 
challenge.
    Chairman Roberts. You also mentioned the problem of all the 
paperwork or the work that goes into responses that are called 
for. Give me a couple examples, if you could.
    Mr. Murden. Well, in some of those responses, I mentioned 
toxicologists and things like that. I am just a farmer, and 
some of the questions they ask you to respond to are just out 
of my league, and you have to count on your science friends to 
kind of help you out some.
    You know, I think those folks need to get out of that 
cubicle more and to my turnrow a little bit more often, and 
they might appreciate what is going on a little better.
    Chairman Roberts. I appreciate that.
    Mr. Vroom, in your testimony, you mentioned that prior to 
the implementation of the first PRIA, there was little 
certainty for registration packages at EPA. Can you elaborate 
on how PRIA has continually improved the regulatory certainty 
for the registrants?
    Mr. Vroom. Thank you, Mr. Chairman. Absolutely. So we 
described in our written testimony how the passage of the Food 
Quality Protection Act in '96 really put a huge bind on EPA's 
processes, and the biggest casualty of that additional work was 
a slowdown and a virtual halt for new product approvals, 
because of the burden of reevaluating under the new standards 
of FQPA. It took us a full eight years after FQPA to 2004 to 
get PRIA put in place.
    So wait times went above four, five, even six years for new 
active ingredients, and even at that time, sunk cost investment 
in the new active ingredient for manufacturer was probably in 
excess of $150 million. Today, it is approaching $300 million.
    Within a couple of years of PRIA being enacted and having 
the effect of additional resources for EPA and the clarity of 
priorities of timelines, that four-year-and-more wait time 
dropped to about two years. Now it has creeped back to about 
three for a variety of reasons, part of which is the missed 
targets of appropriated dollar support, and that is why we 
think, again, getting the appropriators at the table and 
helping come up with a compromise approach, just like the 
compromise that is represented by the coalition that Virginia 
referred to that we are both a part of--Farmworker Justice and 
the pesticide industry--makes sense to get to some compromise 
here on the Hill with appropriators and authorizers.
    But thank you for the question.
    Chairman Roberts. Commissioner Black, in your testimony, 
you described the unique role the states have under Federal 
Insecticide, Fungicide, and Rodenticide Act, or FIFRA. It is a 
unique and effective regulatory enforcement environment. 
However, I am concerned that other Federal statutes not meant 
to impact the states' responsibilities regarding FIFRA 
registration may be burdensome.
    What type of interaction have you seen between your state 
enforcement responsibilities and other Federal statutes? I am 
talking about the Endangered Species Act. Would you support the 
modernization of this act? The answer to that is yes, but 
please proceed.
    Mr. Black. Mr. Chairman, yes, sir, we would support that, 
absolutely, and it has been a topic of discussion for a long 
time. I know you are passionate about it.
    One of our--maybe the best example in the State of Georgia 
is a success that winds up as a challenge. We have extensive 
holdings in cotton. We have had a big problem with pigweed, 
with Palmer amaranth. We began working on the new technology 
with industry and with our Federal partners. EPA was involved 
early in a successful way trying to help solve the problem in 
Georgia. We have invited them out of the cubicles, and we have 
had them experience first hand, the program with pigweed in 
Georgia and why we needed Dicamba and 2,4-D technology within 
our seed technology.
    That worked pretty well, but now we have regulatory 
decisions regarding application methods that are not rooted in 
science. Tank mixes of 2, 4-D and Dicamba with this soybean and 
cotton technology are not allowed. Mr. Chairman, my experts 
tell me that there is no scientific basis for this decision> 
The answer they have gotten is just are simply scared. The EPA 
is scared of being sued because of the Endangered Species Act.
    I am not sure that is exactly--getting back to our sound 
science, we would love to stick to science, but the tank mix 
issue with respect to Dicamba and 2,4-D is a problem that we 
are experiencing right now.
    Chairman Roberts. I appreciate that.
    Ms. Ruiz, I do not have a question for you, other than the 
fact to repeat my comments to you that the Committee is going 
to work as quickly as possible and without any changes or 
amendments to existing language, and I am reading to you, your 
statement, so thank you. I appreciate that.
    Senator Klobuchar. Thank very much, Mr. Chairman, and thank 
you to all of you for being here and your good work that you do 
all the time.
    I was specifically asking in the previous witnesses here 
about the timetable, and I know that PRIA has a proven track 
record of providing a stable funding source. Minnesota 
industries like Ecolab have been at the forefront of developing 
innovative products, and the predictability--this is what we 
want, right--as well as safety, that PRIA provides, allows 
products like these to reach the marketplace in a consistent 
way.
    So what lessons can we take from the PRIA Coalition on 
bringing coalitions together to address some of the 
inefficiencies that we can have? I would love to take some of 
this success that we have in having a bill that everyone agrees 
on and having a way of doing things into some other areas.
    Anyone can answer this.
    Mr. Vroom. Thank you, Senator Klobuchar. So, on behalf of 
CropLife and others, hopefully on behalf of the coalition, we 
do think that EPA has learned a lot about doing its business 
more efficiently and effectively .
    Since the--what now?--13-plus years that PRIA has been 
there as an added resource, but also with regard to the policy 
guidance that is there in the law about timeline and targets to 
make decisions, whether they are yes or no, they are targets. 
Mr. Keigwin got the question earlier on behalf of EPA from some 
of you--I think Senator Ernst--about the 730-day target 
timeline for making decisions on new active ingredients, and 
the statistic that was quoted from EPA is that they meet all of 
these deadlines in PRIA 98 percent of the time. There is an 
asterisk on that.
    So percentages can be tricky, and in our testimony, we 
noted that a study that we did from 2012 through 2014, which 
was a fairly representative period out of the 13 years, that 
730-day target was vastly missed by 50 to 100 percent in some 
of those years.
    So they ask for a renegotiation of the deadline and then 
count that as a met deadline when they meet the renegotiated 
timeline.
    An example that came up at a conference that we sponsored 
with EPA a couple of weeks back, the head of the registration 
and the head of the re-registration divisions openly admit that 
their computer systems still do not talk to each other, and so 
there is a lot of duplicated work that has to occur to 
translate one computer's messaging to the other one. They are 
doing a lot of the same work.
    Senator Klobuchar. Okay.
    Mr. Vroom. So there is still more progress that can be made 
in those kinds of areas.
    Senator Klobuchar. Mr. Murden, in your testimony, smaller 
acreage and other specialty crops, you noted are sometimes 
disadvantaged in the development of new products or 
registrations. In Minnesota, that means things like sweet corn 
and apples and barley. Can you explain how having regulatory 
certainty and accountability helps some of the smaller crops, 
like the ones you grow?
    Mr. Murden. Yes, ma'am. It boggles my mind how much it 
takes to bring a chemical to register. I mean, some of the 
money you are talking about, 250- to $280 million, is, quite 
frankly, more than some of these industries are as a total. So 
we need the level playing field and need all the help we can 
get. I am not any less important than the corn growers.
    Senator Klobuchar. Really? No.
    [Laughter.]
    Senator Klobuchar. Okay. Except in Iowa. But I am just 
kidding. It's a joke.
    Okay. So thank you for that. We actually are number one for 
sweet corn, and that is why I brought that up. It is different.
    Commissioner Black, I authored legislation that was 
included in the 2014 Farm Bill that created an Ag Science 
Committee at EPA to provide advice to the Science Advisory 
Board. Efforts to increase this communication between the 
agencies, as I just noted in the first question, are important. 
Do you think the USDA outreach to EPA has been helpful, and 
what do you see as ways to improve it?
    Mr. Black. Yes, ma'am. I believe anytime that we can come 
together across agency lines to help farm families and help 
this business, that is what we should do because it should be 
about service. It should be about finding solutions. We believe 
state departments of agriculture have a role to play because we 
are implementing federal laws and regulations We are the ones 
on the ground every day working with farmers, working with 
businesses and real people in real ways.
    I absolutely believe in the supremacy of Federal law. We 
have requirements under law. We have things that we have to 
enforce. I do not think Federal Government, though, has a 
monopoly on talent, skill, and experience, and there is quite a 
bit of that at the state level. We would actually like to be a 
part of how to improve the skill sets within the Federal 
Government, so that when we have people who have 
responsibilities in agriculture, that they actually have a 
background to provide the service.
    Senator Klobuchar. Yeah.
    Mr. Black. I think that makes a lot of sense.
    Senator Klobuchar. Yeah.
    Mr. Black. When my Plant Industry Division director sits at 
a meeting and an EPA person from our region leans over and asks 
him ``Do we grow many peanuts in Georgia?''. I think that is a 
problem, not that that is a bad person, but----
    Senator Klobuchar. No. It is just--yes, why did that----
    Mr. Black. --maybe the skill is not matched up quite----
    Senator Klobuchar. Do you grow many peanuts in--no, I am 
kidding.
    Okay. Thank you. I know exactly what you mean, and the 
Chairman has allowed me to ask one more question because I want 
to make sure Ms. Ruiz gets a question in here.
    In your testimony, you discuss the importance of the newly 
updated Worker Protection Standards and the certified 
applicator rule. Can you talk about the specific risk, the new 
protection standards and rules eliminate, and why we want to 
keep them in place?
    Ms. Ruiz. Thank you. Yeah. The recently updated WPS 
contains some fundamental safeguards to protect farmworkers, 
their children, and pesticide handlers from acute and long-term 
illnesses and injuries associated with pesticide exposure. The 
revised WPS and CPA rules significantly increase protections 
for children by requiring that pesticide handlers and 
applicators be at least 18 years old. Children under the age of 
18 often lack the maturity to safely handle these chemicals, 
and so allowing them to do so puts not only them, but also 
their coworkers at serious risk.
    The WPS also includes provisions, so-called ``application 
exclusion zones,'' to protect workers and bystanders from 
direct spray and airborne drift from--during the pesticide 
applications.
    Finally, enhanced safety training required by the WPS 
includes some practical measures for workers to avoid exposing 
their families to pesticide residues on their skin and 
clothing.
    The updated certified pesticide applicator rule, whose 
implementation has been twice delayed by the EPA, also includes 
some critically needed safeguards that have the potential to 
save children's lives.
    One example I wanted to bring out--and this is something 
that was cited by EPA in its rulemaking--in 2010, a commercial 
pesticide applicator in Utah misapplied a pesticide, a 
restricted use pesticide, at a home where two young girls 
lived. He applied the wrong dose and placed it too close to the 
home, and tragically, these children became ill and died from 
the exposure.
    There are hundreds of acute health incidents related to 
restricted use pesticide exposure reported every year. 
Misapplications that result in tragic events could be avoided 
with strengthened certification and training requirements for 
these applicators.
    Senator Klobuchar. I really appreciate it. Thank you.
    Ms. Ruiz. Thank you.
    Chairman Roberts. The Chair now recognizes the Senator who 
has achieved a record of gentlemanly yields that I do not think 
ever will be broken. I can assure you as long as I am in the 
Chair that he will hold that record.
    Senator Perdue.
    Senator Perdue. I want to apologize for the Chairman's 
humor this morning, but----
    [Laughter.]
    Senator Perdue. Mr. Vroom, you have touched on it just a 
minute. I want to dial into this just a minute as a business 
guy. Taking 11 years, $280 million, to bring a product to 
market is not competitive. I get the gravity of this. I get the 
dangers. I understand how important it is for when you say 7.5 
billion folks out there who need food.
    But you also say in your testimony that in that kind--the 
biggest regulatory challenge to EPA's performance is 
implementing the Endangered Species Act and the harmonization 
with FIFRA for pesticide registration, and that we are 
averaging somewhere between 950 and 1,100 days compared to the 
730 target.
    Mr. Vroom. Right.
    Senator Perdue. Specifically, what do we need to think 
about as an industry, and what can you help us with that would 
speed that up and address the 11 years and $280 million of 
product entry?
    Mr. Vroom. Well, Senator Perdue, thank you for that 
question, and, of course, there are endangered species in every 
state in the Union. Some states have more than others, and some 
states have more that are at the intersection or potentially or 
in theory at the intersection with farming and production 
agriculture than others, but it is everywhere.
    We all want to ensure that we can protect the environment 
and that threatened and endangered species and their habitats, 
which are all very carefully described under the Endangered 
Species Act that has now been in place for 45 years. We want to 
respect that and ensure that those goals are achieved.
    But in the 16 years since some organizations have decided 
to use the courts to try to get a new interpretation of what 
EPA should do under the Endangered Species Act, we have seen no 
additional protections for endangered species. But it has added 
15 to 20 percent resource consumption by EPA to respond to 
these paper procedural matters and to the court cases.
    We have, as an association on behalf of our members, 
participated in over a dozen of those Federal lawsuits. Most of 
them have been successfully managed. We have gone through 
discovery and arguments in the courts, but at the end of the 
day, we now see that those same activist organizations are 
litigating over brand-new chemistries. It used to be just old 
chemistries. Now it is holding up access to new chemistry 
approvals to get to the marketplace.
    So amending the Endangered Species Act is not easy for 
Congress. We were part of a coalition that attempted to do that 
10 years ago and failed. We think that a fresh look at that but 
also with regard to administrative improvements that could be 
done by both the Departments of Interior and Commerce, USDA, 
and EPA might be another pathway or a combination along with 
things that Congress might be able to assist with.
    So we would like to come back to you and talk more about 
those ideas because, again, it impacts more than just our 
industry. It is vital for farmers. Certainly, ranchers in the 
West have got lots and lots of issues with regard to endangered 
species and the ability to graze animals and the like, so a 
very important topic that needs a lot more time and attention. 
So thank you very much.
    Senator Perdue. Thank you.
    Commissioner Black, I am impressed. ``Cooperative 
federalism.'' I did not know you had five-syllable words in 
your vocabulary.
    Mr. Black. Thank you.
    Senator Perdue. But would you expand on that a little bit 
and talk about specifics in Georgia where you may have started 
applying that concept?
    Mr. Black. Well, Senator, thank you. Again, that is a term 
that goes back to some learned folks that discussed it 200 
years ago regarding what the relationship should be between the 
federal government and the state government.
    But let me boil it down this way to put it in my terms. It 
is that we work together. All of the those stakeholders that 
have a role in enforcing the law should work together and 
communicate, and we should have a servant's mind about it. Our 
job here is really not to be the government, to hide in the 
weeds, to jump out and say ``boo,'' but that we should not be 
afraid to say ``yes, if'' and guide it that way.
    One example that comes to mind immediately relates to 
Georgia and the nation is a product approved to control feral 
HOAs. I have a call a day asking what we are doing to solve the 
feral HOA problem.
    Well, there is an EPA-approved product. You all have 
probably seen this. It has been in the news. Some colleagues 
out West approved it. We will not approve that in the State of 
Georgia because it harms wildlife, and I do not understand why 
they did not figure that out to start with. So that is an 
example where if cooperation between the states and EPA, states 
having a seat at the table during the approval process would be 
helpful. We also believe this is really important at FDA, the 
implementation of Food Safety Modernization Act. We are on the 
ground every day. We would like for more of our federal 
partners to be open to invitations to leaving Washington, and 
come to the ground where the work is being done. I promise you 
we will be good hosts in Georgia.
    Senator Perdue. Could I ask Ms. Ruiz just one quick 
question?
    Chairman Roberts. Sure.
    Senator Perdue. Thank you for your forbearance.
    Ms. Ruiz, the 18-year-old rule for application--and I 
understand the seriousness or the dangers around these 
products. I am interested. Was there a comment period, and what 
comments did you get from family farms about the 18-year rule? 
I am not debating. I am not arguing against it, but as a person 
who did a lot of work on a farm below the age of 18, I am 
curious as to what impact it had and what kind of comments you 
got back from small family farms.
    Ms. Ruiz. For both the Worker Protection Standard and the 
Certified Pesticide Applicator rules, there is an exemption for 
family members----
    Senator Perdue. I see.
    Ms. Ruiz. --from that minimum age requirement.
    Senator Perdue. Great. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Roberts. That will conclude our hearing today, 
with the exception of I feel compelled to inform Mr. Vroom 
that--and anybody else that cares--I talked to a farmer this 
morning out in southwest Kansas. It usually does not rain that 
much in southwest Kansas. We have had 14 inches of rain in 
southwest Kansas. That is incredible. I think the last time we 
have had that was 1878. I remember that well.
    [Laughter.]
    Chairman Roberts. But the whole point of that is that with 
rain, we now have the habitat for the lesser prairie chicken 
which has been listed and then not listed on the endangered 
species list, and I think with the habitat that we will have 
enough of lesser prairie chickens, that we will have the 
greater lesser prairie chicken. Now that gets a little bit 
silly if you really get down to it, but it is not because of 
all of the prohibitions to farmers and how they would conduct 
their cropping operations and everything else with regards to 
the Endangered Species Act.
    So I would hope that if any of you have any ways that we 
could take a look at that--and we will cooperate with the other 
Committees that have that jurisdiction to see if we can get 
some answers.
    We are pretty close to listing farmers on the endangered 
species list, given the rough patch that we are in.
    With that, thank you to each of our witnesses on both 
panels taking time to share your views on pesticide 
registrations and issues impacting agriculture and the crop 
protection industries. The testimonies provided today will be 
very valuable for the Committee to hear firsthand.
    Let me say to my fellow members, we would ask that any 
additional questions you may have for the record be submitted 
to the Committee Clerk five business days from today or by 5 
p.m. next Thursday, May 18th.
    The Committee stands adjourned.
    [Whereupon, at 11:54 a.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                              MAY 11, 2017

      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              MAY 11, 2017

      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                         QUESTIONS AND ANSWERS

                              MAY 11, 2017

      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
